No. _______

In the
Supreme Court of the United States

Noe Perez,
Petitioner,
v.
Renee Baker, Warden, et al.
Respondents-Appellees.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Proof of Service

Rene Valladares
Federal Public Defender,
District of Nevada
*Rick A. Mula
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Rick_Mula@fd.org
*Counsel for Noe Perez

I certify I represent Noe Perez through appointment under the Criminal
Justice Act of 1964, see 18 U.S.C. §§3006A(a)(2)(B), 3006A(d)(7), and am authorized
to file a petition for a writ of certiorari on Mr. Perez’s behalf. I certify that on June
30, 2021, I served counsel for the State with copies of the following documents:
1. Motion for leave to proceed in forma pauperis;
2. Petition for a writ of certiorari;
3. Appendix; and
4. Proof of service.
Counsel for the State is Geordan Goebel, Deputy Attorney General, 100 N. Carson
Street, Carson City, Nevada, 89701, (775) 684-1136.
I certify I served counsel for the State with copies of these documents via
electronic means. On April 15, 2020, this Court entered a standing order authorizing
electronic service with the parties’ consent. The Office of the Attorney General for
the State of Nevada has given blanket consent to electronic service.
Dated June 30, 2021
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/ Rick A. Mula
Rick A. Mula
Assistant Federal Public Defender

1

